  DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



     INFORMATION TECHNOLOGY:
              Final Obstacles Removed
       To Eliminate Customs Disaster Recovery
                 Material Weakness




 Office of Information Technology
OIG-IT-03-01        September 2003
                                      Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG)
was established by the Homeland Security Act of 2002 (Public Law 107-296) by
amendment to the Inspector General Act of 1978. This is one of a series of audit,
inspection, investigative, and special reports prepared by the OIG periodically
as part of its oversight responsibility with respect to DHS to identify and prevent
fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the
program, operation, or function under review. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the
best knowledge available to the OIG, and have been discussed in draft with those
responsible for implementation. It is my hope that this report will result in more
effective, efficient, and/or economical operations. I express my appreciation to all
of those who contributed to the preparation of this report.




Clark Kent Ervin
Acting Inspector General
                                                                                                                        Contents


  Introduction.................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 4

  Background .................................................................................................................................... 5

  Findings… ..................................................................................................................................... 7

          Customs Has Made Significant Progress To Establish A Disaster ............................................
          Recovery Capability.............................................................................................................. 7

          UNIX Platform Test Goals Were Not Completed ................................................................. 9

          Mainframe Firewall Was Not Correctly Configured ............................................................. 9

          Process For Identifying Recovery Problems Was Inconsistent And Incomplete .................. 9

          Back-up Tapes And Documentation Need Further Protection ............................................. 10

  Recommendations......................................................................................................................... 10

  Management Comments and OIG Evaluation .............................................................................. 10

Appendices
  Appendix A:                Purpose, Scope, and Methodology .................................................................. 12
  Appendix B:                References To Prior Audit Recommendations ................................................ 13
  Appendix C:                DR Exercise Objectives and Results............................................................... 14
  Appendix D:                Management Comments ................................................................................. 15
  Appendix E:                Major Contributors.......................................................................................... 18
  Appendix F:                Report Distribution ......................................................................................... 19




                Final Obstacles Removed to Eliminate Customs DR Material Weakness                                                               Page 1
Contents

         Abbreviations
             ATS                          Automated Targeting System
             CRF                          Commercial Recovery Facility
             DHS                          Department of Homeland Security
             DR                           Disaster Recovery
             FY                           Fiscal Year
             GAO                          U. S. General Accounting Office
             IG                           Inspector General
             IT                           Information Technology
             LAN                          Local Area Network
             NDC                          Newington Data Center
             OIG                          Office of Inspector General
             SOP                          Standard Operating Procedure




Page 2                   Final Obstacles Removed to Eliminate Customs DR Material Weakness
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                                 Losing the capability to process, retrieve, and protect information electronically
                                 maintained can significantly affect an organization’s ability to accomplish its
                                 mission. Even relatively minor interruptions can result in financial losses,
                                 expensive recovery efforts, and inaccurate or incomplete financial and
                                 management information. Federal guidelines require agencies to establish
                                 contingency plans (i.e., disaster recovery [DR] plans) to ensure continuity of
                                 operations during and after the occurrence of a failure in their automated support
                                 systems or other unforeseen or unplanned catastrophic event. Plans should be
                                 periodically tested to ensure they work as intended. A backup facility can provide
                                 the capabilities to replicate and restore critical applications and functions in order
                                 to resume operations in the event of a disaster. Untested plans, or plans not tested
                                 for a long period of time, may create a false sense of an agency’s ability to recover
                                 such operations in a timely manner.

                                 The Department of Homeland Security’s (DHS) Office of Inspector General
                                 (OIG), in conjunction with the Treasury Department’s OIG, conducted a review
                                 of DR exercises undertaken by the United States Customs Service1 (Customs)
                                 in 2002 and 2003. This audit was initiated as part of the Treasury OIG’s Annual
                                 Audit Plan for Fiscal Year (FY) 2002 and ongoing efforts to observe DR tests
                                 throughout the department. The objectives of this audit were to determine
                                 whether Customs implemented prior audit recommendations and evaluate
                                 Customs’ recovery capability at its Commercial Recovery Facility (CRF).
                                 Fieldwork was conducted between June 2002 and June 2003 at Customs’ CRF in
                                 Sterling Forest, New York.

                                 The results of this report are based solely on our observations of the DR exercises
                                 performed in June 2002, September 2002, November 2002, and June 2003.
                                 We did not evaluate the security controls implemented in any of the recovered
                                 operating environments. By mutual agreement with the Treasury OIG, the DHS
                                 OIG is issuing the final report. See Appendix A for a detailed discussion of our
                                 purpose, scope, and methodology.

    1
        On March 1, 2003, Customs became part of a new agency within DHS and is now know as the Bureau of
        Customs and Border Protection. However, for this report, we will refer to the bureau simply as Customs.


                      Final Obstacles Removed to Eliminate Customs DR Material Weakness                           Page 3
Results in Brief
                   Customs has made significant progress in resolving the longstanding material
                   weakness regarding its non-existent disaster recovery capability. Specifically,
                   Customs contracted with a vendor to provide a facility and support services
                   for restoring its computer operations in the event of a disaster. Also, Customs
                   established a detailed process to help ensure the recovery of its computer
                   operations. During its first comprehensive DR exercise at the CRF, Customs
                   successfully restored the majority of its Newington Data Center (NDC) computer
                   operations (i.e., mainframe, local area network [LAN], and UNIX platforms) and
                   established connectivity to selected field offices and trade partners.

                   However, we identified areas where Customs could better ensure the successful
                   restoration of its computer operations in the event of a disaster. Specifically,
                   we found that the UNIX Recovery Team was not able to initialize the Sol and
                   Hercules Oracle databases that reside on UNIX servers. As a result, one mission-
                   critical application (the Automated Targeting System [ATS] – People) did not
                   become operational during the recovery test. Also, we found that the incorrect
                   configuration of the firewall denied a trade partner access during one of the
                   mainframe connectivity tests. During the DR exercise, Customs used situation
                   reports to track potential problems, issues, or concerns. We found that some of
                   the information recorded in the situation reports was inconsistently documented or
                   incomplete. In addition, documentation and back-up tapes were transported and
                   stored in containers that were not fire-resistant.

                   We recommend a number of actions that Customs can take to improve its disaster
                   recovery capabilities, including:

                      •    Implementing technology to enable the initialization of the Sol and
                           Hercules Oracle databases within the established recovery timeframe;
                      •    Configuring the mainframe firewall to allow remote access by trade
                           partners;
                      •    Ensuring that disaster recovery operations center team members are
                           provided with specialized training on how to complete situation reports;
                           and,
                      •    Ensuring that back-up tapes are transported in fireproof containers.




Page 4                    Final Obstacles Removed to Eliminate Customs DR Material Weakness
                In its response to our draft report, Customs management concurred with our
                findings and recommendations concerning the November 2002 test. Following
                the test, Customs management developed plans to resolve all issues arising from
                the November 2002 test. These issues were resolved in a subsequent DR exercise
                conducted in June 2003. With the success of the June 2003 disaster recovery
                exercise, the Department of Homeland Security should consider eliminating
                the material weakness associated with Customs non-existent disaster recovery
                capability. Customs’ response is summarized and evaluated in the body of this
                report and included, in detail, in Appendix D.

Background
                To protect information resources and minimize the risk of unplanned
                interruptions, an agency should have a process and plan in place to regain
                critical operations in the event that its automated support systems fail or some
                other unforeseen potentially catastrophic event occurs. An agency’s DR plan
                should consider the activities performed at general support facilities, such as data
                processing centers and telecommunications facilities, as well as the activities
                performed by users of specific applications. Agency plans should be periodically
                tested to ensure that the necessary procedures to successfully restore operations in
                an emergency situation are in place.

                The Office of Management and Budget’s Circular A-130, Management of Federal
                Information Resources, establishes the policy for the management of Federal
                information resources. Specifically, Appendix III of this circular, Security
                of Federal Automated Information Resources, establishes a minimum set of
                controls to be included in Federal automated information security programs. In
                establishing these controls, managers should plan for how they will perform their
                mission and/or recover from the loss of existing application support, whether
                the loss is due to the inability of the application to function or a general support
                system failure.

                Testing DR plans is an essential part of an effective recovery process. This
                testing should include determining whether an alternative data processing site will
                function as intended, and critical computer data and programs recovered from
                off-site storage are accessible and current. In executing the plan, management
                may be able to identify weaknesses and make changes accordingly. Moreover,
                tests will assess how well employees have been trained to carry out their roles and
                responsibilities in a disaster situation.



       Final Obstacles Removed to Eliminate Customs DR Material Weakness                      Page 5
         The results of DR testing provide an important measure in assessing the feasibility
         of the DR plan. As such, test results should be reported to senior management
         so they are aware of the risks associated with continuing operations without an
         adequate DR plan, and the need to modify the plan or perform additional testing.
         Because any test of a DR plan is likely to identify weaknesses in the plan, it is
         important that the plan and related supporting activities, such as training, be
         reviewed to address these weaknesses.

         In addition to its own needs, other federal agencies rely extensively on Customs
         information technology (IT) to help enforce laws governing the flow of goods and
         people across American borders, as well as to assess and collect duties, taxes, and
         fees on imported merchandise. The mainframe, LAN, and UNIX platforms at the
         NDC support several major applications related to Customs commercial, financial,
         administrative, and law enforcement activities.

         In 1994, the U.S. General Accounting Office (GAO) cited Customs DR capability
         for its inadequacy. In addition, the Treasury OIG has repeatedly reported this
         lack of DR capability and suggested that the bureau report this condition as a
         material weakness. (See Appendix B for a history of the reported deficiencies in
         Customs continuity of operations capability.) Customs subsequently reported its
         DR capability as a material weakness in a memorandum, dated May 26, 2000, to
         the Secretary of the Treasury. This memorandum referenced Section 5(d) of the
         Inspector General (IG) Act, 5 U.S.C.A. App. 3, which requires the IG to report
         immediately to the Secretary whenever the IG becomes aware of a particularly
         serious deficiency in the operations of the Department. Under the same provision
         of the law, the Secretary was required to transmit a report on Customs’ deficiency
         to Congress within seven calendar days.

         In response, Customs created a specialized unit, known as “the disaster recovery
         operations center team,” to address the historical material weakness with its DR
         capability. In January 2002, Customs hired a vendor to provide recovery services
         for its computer operations. In the months leading up to the November 2002 DR
         exercise, the team conducted tests on each component of Customs’ comprehensive
         DR plan. See Appendix C for details of the exercises performed.




Page 6        Final Obstacles Removed to Eliminate Customs DR Material Weakness
Findings
                    Customs Has Made Significant Progress To Establish
                    A Disaster Recovery Capability

                    Customs has made significant progress in resolving the longstanding material
                    weakness related to its non-existent DR capability. Customs successfully
                    recovered its NDC computer operations (i.e., mainframe, LAN, and UNIX
                    platforms) and established connectivity to select field offices (Miami, Los
                    Angeles) and trade partners (Clearfreight, Derringer). The field offices and trade
                    partners successfully executed mission-critical application transactions. The
                    mission critical applications included the Automated Commercial System and the
                    Treasury Enforcement Communication System.

                    During our review, we identified a number of actions taken by Customs, as
                    well as the recovery services vendor, that assisted in establishing Customs’ DR
                    capability and will help to minimize service disruptions in the event of a disaster.
                    Specifically, we observed that:

                       •   The CRF had adequate physical controls for off-site recovery. For
                           example, the CRF was located in an unmarked building, in an isolated
                           area. Guards were stationed at the entrance to the CRF campus, as well as
                           the CRF recovery building. Access to the CRF recovery building required
                           photo identification, an access badge, and a personal access code. The
                           personal access code was used for the keypad/locking devices located at
                           all doorways throughout the CRF. In addition, the recovery rooms in the
                           CRF facility contained raised flooring, air conditioning units, fire alarm
                           system, smoke detectors, fire extinguishers, and sprinkler system.

                       •   All participants on the mainframe, LAN, and UNIX recovery teams had
                           access to either an electronic or hard copy of the DR standard operating
                           procedures (SOP). We observed several disaster recovery operations
                           center team members from all three recovery teams using the SOPs during
                           the exercise.

                       •   A computer operations recovery test plan was established for the DR
                           exercise. Specifically, the test plan identified: (1) the testing schedule; (2)
                           staffing, personnel, and logistics; (3) command and control procedures;
                           (4) security procedures; (5) success criteria for each platform; (6) back-up
                           tape procedures; (7) test processes for the mainframe, LAN, and UNIX


           Final Obstacles Removed to Eliminate Customs DR Material Weakness                       Page 7
                 environments; (8) integrated test processes and goals; and (9) extended
                 goals if primary goals were achieved. In the testing schedule section of
                 the test plan, starting and ending times were established for each task. All
                 completion times were recorded by a designated observer and the results
                 were tracked at the primary command and control center.

            •    The situation report forms were used to record problems, issues, and
                 concerns encountered during the exercise. Each report was assigned
                 a tracking identification number. The situation reports allowed for the
                 entering of information pertaining to: (1) the platform that encountered
                 the incident; (2) a description of the incident; (3) the date and time of
                 the incident; (4) the priority of the incident (minor problem or a major
                 disruption); and (5) supporting documentation.

            •    Customs established a logistical process for its personnel and back-up
                 tapes used in the DR exercise. The bureau used ground transportation to
                 ensure that the disaster recovery operations center team and shipment of
                 back-up tapes used for the recovery process arrived at the CRF in a timely
                 manner. Customs also used ground transportation to ensure that team
                 members were transported from the their hotel to the CRF during work-
                 shift rotations. Additionally, security personnel guarded the back-up tapes
                 and recovery documentation throughout the entire exercise.

            •    The disaster recovery operations center team created a “lessons learned”
                 document after each of the five (four component and one comprehensive)
                 DR exercises performed during 2002. Our review of these documents
                 showed that they were inclusive and identified specific ways Customs
                 could ensure continued improvement of its DR capability. In addition, we
                 observed that the team effectively communicated with the CRF vendor
                 by conducting meetings to exchange management and technical feedback
                 from the exercise. Effective communication with the vendor will assist in
                 further improving Customs’ DR capability.

         Although Customs met the primary goals established for the mainframe and
         network platforms, the primary goals established for the UNIX platform were
         met only partially. Also, configuration problems were encountered regarding




Page 8          Final Obstacles Removed to Eliminate Customs DR Material Weakness
                              firewall security. Though situation reports were used to track potential problems,
                              issues, or concerns during the DR exercise, we found that some of the information
                              recorded was either inconsistent or incomplete. In addition, back-up tapes used to
                              recreate the computer operations needed further protection.

                              UNIX Platform Test Goals Were Not Completed

                         The UNIX Recovery Team was not able to initialize the Sol and Hercules Oracle
                         databases that reside on the UNIX servers. Although, the UNIX recovery team
                         encountered configuration problems with host bus adapters2 that delayed the
                         initialization of the databases, the team concluded that these databases were too
                         large (approximately three terabytes each) to initialize in the given timeframe.
                         This resulted in one mission-critical application’s
                         (ATS – People) not functioning fully.
                    Was Not Correctly Configured
                         Mainframe Firewall Was Not Correctly Configured

                              During connectivity testing, the configuration of the firewall prevented an
                              authorized trade partner access to the production mainframe. To allow the trade
                              partner access, the team had to eliminate the security of the firewall. Once the
                              firewall security was eliminated, the trade partner was successful in accessing the
                              production mainframe, and transactions were executed successfully.

                              Process For Identifying Recovery Problems Was Inconsistent And Incomplete

                              Customs used situation reports to track problems, issues, and concerns during
                              the recovery exercise. The reports were forwarded to the command center and
                              the information recorded was used to ensure that problems encountered during
                              this disaster recovery exercise are corrected for future exercises. We found,
                              however, that some of the information recorded in the situation reports was either
                              inconsistent or incomplete. For example, our review of reports relating to the
                              mainframe environment identified instances where the “Situation Description”
                              and “Priority of Situation” sections were left blank. Also, the detail of problems,
                              issues, or concerns identified in the “Situation Description” section varied among
                              the team individuals that were assigned to record the situation reports. For
                              example, in some reports, the “Situation Description” sections were written in
                              detail, while some were general and brief. The lack of sufficient detail could

2
    A host bus adapter is an input/output adapter that connects a host input/output bus to a computer’s memory system. A “bus”
    is defined as a network topology or circuit arrangement in which all devices are attached to a line directly, and all signals
    pass through each of the devices.


                   Final Obstacles Removed to Eliminate Customs DR Material Weakness                                     Page 9
             prevent the team from accurately identifying the problem and adequately
             correcting it. Further, the team members assigned to write the situation reports
             were not provided specific training on how to assign the priority level for an
             incident. Although general training was provided for team members assigned to
             develop situation reports, management agreed that more specific training needs to
             be provided for recording information in the reports.

             Back-up Tapes And Documentation Need Further Protection

             Although Customs had security personnel guard the back-up tapes and
             documentation throughout the exercise, these items were not maintained in
             fireproof containers. Back-up tapes and recovery documentation are essential to
             any successful disaster recovery plan. Storing the back-up tapes and recovery
             documentation in fireproof containers throughout the exercise would provide
             further protection of these essential items.



Recommendations
             OIG recommends that the Commissioner of Customs and Border Protection direct
             the Chief Information Officer, Customs and Border Protection to:

                1. Acquire technology to enable the initialization of the Sol and Hercules
                   Oracle databases within the established recovery timeframe;

                2. Configure the mainframe firewall to allow remote access by trade partners;

                3. Ensure that specialized training is provided to all disaster recovery
                   operations center team members on how to complete the situation reports;
                   and,

                4. Ensure that back-up tapes are transported in fireproof containers.

Management Comments and OIG Evaluation
             Management Comments

             In its written comments to the draft report, Customs concurred with our
             recommendations and planned to implement appropriate actions to correct the



Page 10           Final Obstacles Removed to Eliminate Customs DR Material Weakness
         weaknesses identified. The bureau demonstrated the following actions taken
         through the results of the June 2003 DR test at the CRF:

            •   Customs successfully recovered the databases that support the ATS
                mission-critical application within the established recovery timeframe.
                Access to ATS via multiple technologies was achieved by the disaster
                recovery operations center team to ensure its availability to the user
                community.
            •   The firewall configuration that had previously denied a trade partner
                access during one of the mainframe connectivity tests in November 2002
                was resolved. All five trade partners were successful in connecting to the
                CRF through the firewall during the June 2003 test.
            •   Specialized training on completing situation reports was provided to all
                technical observers prior to the June 2003 test. The reports were used
                throughout the June test, and the information recorded in the reports
                was consistent and complete across all technologies. A LAN was also
                installed at the CRF to ensure that the technology areas being tested could
                communicate with the Command and Control Center.

         Although Customs management acknowledged that the current practice for the
         transport and storage of documentation and back-up tapes does not include the use
         of fire-resistant containers, they took additional steps to minimize the exposure
         of data during transport. Specifically, (1) multiple backups for each day of
         activity are transported to the CRF to ensure recoverability; (2) media is shipped
         in industry standard transport containers; and (3) media is shipped via multiple
         vehicles.

         OIG Evaluation

         The OIG agrees that the formal steps Customs management has taken satisfies the
         intent of the recommendations.


         ******

         We would like to extend our appreciation to Customs for the cooperation and
         courtesies extended to both the DHS and Treasury OIG staffs during the review.
         If you have any questions, please contact Frank Deffer, Assistant Inspector
         General for Information Technology, at (202) 254-4100, or Edward G. Coleman,




Final Obstacles Removed to Eliminate Customs DR Material Weakness                   Page 11
Appendix A
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                        The overall objectives of this review were to determine whether Customs
                        implemented prior audit recommendations and evaluate the bureau’s DR
                        capability at the CRF. These objectives were accomplished by identifying
                        whether Customs had taken corrective actions to remedy previous weaknesses
                        identified by observing four DR exercises at the CRF. The results of this report
                        are based on observations of the DR exercises at the CRF, and our review of
                        related documentation created by the disaster recovery operations center team.

                        Of the five exercises that were conducted during 2002, we observed two
                        component exercises, as well as the comprehensive restoration of the computer
                        operations. Specifically, during June 2002, we observed the component
                        recovery exercise for the mainframe and LAN platforms. We then observed the
                        component exercise conducted during September 2002, which tested the frame
                        relay connectivity between the CRF and Customs field offices and trade partners.
                        Finally, we observed the comprehensive DR exercise conducted in November
                        2002. The primary goal of the November exercise was to integrate the previous
                        component testing and validate the test plans and procedures developed to recover
                        the NDC computer operations. We also observed the DR test conducted in
                        June 2003 to ensure corrective actions were taken to address the weaknesses we
                        identified during the November 2002 test.

                        We conducted our audit between June 2002 and June 2003 in accordance with
                        generally accepted government auditing standards. The results of this report are
                        based solely on our observation of the DR exercises involving Customs and its
                        CRF. We did not evaluate the security controls for any of the recovered operating
                        environments.




Page 12                       Final Obstacles Removed to Eliminate Customs DR Material Weakness
Appendix B
References To Prior Audit Recommendations




                  References To Prior Audit Recommendations
                                                                                                Report Title
                                                                                       Financial Management:
                                                                                       Customs Controls Over
                                                                                       Sensitive Computer
                                                                                       Programs and Data Were
                                                                                       Weak
                                                  OIG-                                 U.S. Customs Service’s EDP
                                                   95-                                 General Controls Continue
                                                  131                                  To Be Weak
                                                                                       Additional Information On
                                                                                       Reportable Matters Related
                                                  OIG-
                                                                                       to the Audit of the U.S.
                                                   96-
                                                                                       Customs Service’s Fiscal
                                                  098
                                                                                       Year 1995 Consolidated
                                                                                       Financial Statements
                                                                                       Report on the United
                                                  OIG-                                 States Customs Service’s
                                                   97-                                 Fiscal Years 1996 and 1995
                                                  054                                  Consolidated Financial
                                                                                       Statements
                                                                                       Report on the United
                                                  OIG-                                 States Customs Service’s
                                                   98-                                 Fiscal Years 1997 and 1996
                                                  050                                  Consolidated Financial
                                                                                       Statements
                                                  OIG-                                 Final Report on the U.S.
                                                   99-                                 Customs Services Continuity
                                                  109                                  of Operations Capability
                                                                                       Deficiencies in U.S. Customs
                                                                                       Service Automated Systems
                                                                                       Final Report on the U.S.
                                                  OIG-
                                                                                       Customs Services Disaster
                                                   00-
                                                                                       Recovery and Computer
                                                   115
                                                                                       Security Programs




                       Final Obstacles Removed to Eliminate Customs DR Material Weakness                  Page 13
Appendix C
DR Exercise Objectives and Results




                      DR Exercise Objectives and Results
                Date                                 Objective                 Exercise Results
             June 11, 2002           Test the plans and procedures                      Successfully
                  to                 developed to recover the                           recovered
             June 14, 2002           mainframe and LAN platforms at                     mainframe
                                     the CRF.                                           and LAN
                                                                                        platforms.
             July 18, 2002           Test the plans and procedures                       UNIX
                   to                developed to recover the UNIX                       platform was
             July 20, 2002           platform at the CRF.                                recovered
                                                                                         except for
                                                                                         the Sol and
                                                                                         Hercules
                                                                                         servers.
             September 10,           To test and accept one DS-3 circuit                 The disaster
                 2002                to ensure that the circuit was                      recovery
                  to                 operational for the 9/21 test. The                  operations
             September 14,           DS-3 circuits are used for network                  center
                 2002                connectivity and for the relay                      network
                                     circuits utilized for communication                 team
                                     to the CRF.                                         successfully
                                                                                         tested one
                                                                                         DS-3 circuit.
             September 20,           Test frame relay connectivity                       Remote
                2002 to              between the CRF and select remote                   connectivity
             September 21,           locations (field offices, trade                     was
                 2002                partners).                                          achieved,
                                                                                         however
                                                                                         the firewall
                                                                                         had to be
                                                                                         disengaged
                                                                                         to allow one
                                                                                         trade partner
                                                                                         access.




Page 14                         Final Obstacles Removed to Eliminate Customs DR Material Weakness
Appendix D
Management Comments




                      Final Obstacles Removed to Eliminate Customs DR Material Weakness   Page 15
Appendix D
Management Comments




Page 16               Final Obstacles Removed to Eliminate Customs DR Material Weakness
Appendix D
Management Comments




                      Final Obstacles Removed to Eliminate Customs DR Material Weakness   Page 17
Appendix E
Major Contributors




Major Contributors
                      DHS OIG – Information Security Audit Division

                      Edward G. Coleman, Director
                      Barbara Bartuska, Audit Manager
                      Anthony C. Nicholson, Auditor
                      Sharell Matthews, Referencer

                      Treasury OIG – Office of IT Audits

                       Joseph A. Maranto, IT Audit Manager
                Richard G. Kernozek, IT Audit




Page 18                     Final Obstacles Removed to Eliminate Customs DR Material Weakness
Appendix F
Report Distribution




        Report Distribution
                               Department of Homeland Security

                               Deputy Secretary
                               Chief of Staff
                               DHS OIG Liaison
                               Undersecretary for Border and Transportation Security
                               Assistant Commissioner, Office of Information Technology
                               Acting Director, Office of Policy and Planning

                               Office of Management and Budget

                               Homeland Bureau Chief
                               DHS OIG Budget Examiner

                               Congress

                                              Congressional Oversight and Appropriations Committees as
                       Appropriate




                      Final Obstacles Removed to Eliminate Customs DR Material Weakness                  Page 19
Page 20   Final Obstacles Removed to Eliminate Customs DR Material Weakness
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector General,
Investigations Division – Hotline. The OIG seeks to protect the identity of each
writer and caller.
